                               HIGHLIGHTS


                        AUDIT REPORT


Wireless Local Area
Network Deployment and
Security Practices
  April 24, 2014




                   Report Number IT-AR-14-005
                                                                        HIGHLIGHTS

                                                                          April 24, 2014
                                               Wireless Local Area Network Deployment
                                                                 and Security Practices
BACKGROUND:                                                 Report Number IT-AR-14-005
The U.S. Postal Service is committed to
providing a high quality, secure, and           WHAT THE OIG FOUND:
cost-effective telecommunication                We determined the Postal Service
infrastructure that includes a wireless         implemented adequate security policies
local area network. This network helps          and controls that effectively detect
link about 32,000 facilities and enable         unauthorized use of and access to its
communication among hundreds of                 wireless network. Specifically, the Postal
thousands of employees and systems.             Service has configured its wireless
The Postal Service is expanding its             controller devices and access points to
wireless infrastructure to provide mobile       continuously monitor and detect
connectivity in delivery units to support       unauthorized access.
new applications and enhance its
competitiveness in the package delivery         Our wireless network discovery scans at
business.                                       all five facilities we reviewed did not
                                                identify any wireless access points that
Wireless technology offers multiple             we considered a threat to the network,
benefits such as increased mobility and         such as those installed without the
ease of use; however, wireless networks         network administrator’s consent.
are easy to compromise if improperly
installed, increasing the risk that the         In addition, the current expansion plans
confidentiality, integrity, and availability    for the wireless infrastructure follow
of information systems and data will be         established policy and security
compromised. Attackers who gain                 standards, and security procedures in
unauthorized access to wireless                 place are effective to ensure new
networks can obtain sensitive                   wireless technologies are authorized,
information, conduct fraudulent                 evaluated, and assessed prior to
activities, harm networks and systems,          deployment.
and disrupt operations.
                                                WHAT THE OIG RECOMMENDED:
Our objectives were to determine                Because the Postal Service has
whether the Postal Service has effective        effective security policies and controls
security policies and controls in place to      for managing its wireless network
detect unauthorized use of and access           infrastructure and technology, we are
to its wireless network, and whether the        not making any recommendations.
expansion plans for its wireless
infrastructure follow established policy        Link to review the entire report
and security standards. The vice
president, Information Technology,
requested this audit.
April 24, 2014

MEMORANDUM FOR:            JOHN T. EDGAR
                           VICE PRESIDENT, INFORMATION TECHNOLOGY




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Wireless Local Area Network
                           Deployment and Security Practices
                           (Report Number IT-AR-14-005)

This report presents the results of our audit of the U.S. Postal Service’s Wireless Local
Area Network Deployment and Security Practices (Project Number 13BG021IT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Sean D. Balduff, acting
director, Information Technology, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Wireless Local Area Network Deployment and                                                                          IT-AR-14-005
 Security Practices


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Wireless Local Area Network Security Policies and Controls .......................................... 2

Recommendations .......................................................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objectives, Scope, and Methodology .......................................................................... 5

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Wireless Scan Analysis ............................................................................... 8
Wireless Local Area Network Deployment and                                                           IT-AR-14-005
 Security Practices



Introduction

This report presents the results of our audit of the U.S. Postal Service’s Wireless Local
Area Network (WLAN) Deployment and Security Practices (Project Number
13BG021IT000). Our objectives were to determine whether the Postal Service has
effective security policies and controls to detect unauthorized use of and access to its
wireless networks and to determine whether the approved expansion plan for its
wireless infrastructure follows established policy and security standards. The vice
president, Information Technology, requested we review the Postal Service’s WLAN.
See Appendix A for additional information about this audit.

The Postal Service has an extensive data and voice telecommunication infrastructure
that links about 32,000 facilities and enables communication among hundreds of
thousands of employees and systems. This infrastructure includes communication
networks and organization-wide computing systems. The communication networks
include WLAN, local area networks (LAN), Internet, 1 Intranet, 2 Extranet, 3 Virtual Private
Networks (VPN), 4 and all landline and wireless voice and data communication services.

To enhance its competitiveness in the package delivery business, the Postal Service
implemented the Delivery Unit Infrastructure Technology (DUIT) Program. 5 This
program expands wireless network capabilities at delivery units to provide mobile
connectivity for several applications currently scheduled for deployment. Under this
program, the Postal Service will install 18,857 wireless access points (AP) 6 at 11,857
delivery units. The expansion will provide key technologies necessary for successful
implementation of Delivery, Results, Innovation, Value and Efficiency (DRIVE) Initiative
43, Build a World-Class Packaging Platform, and DRIVE Initiative 20, Achieve 100
Percent Product Visibility.

Conclusion

The Postal Service has effective security policies and controls that detect unauthorized
access to its wireless network, 7 and the current expansion plans for its wireless
infrastructure follow established policy and security standards. 8 To provide network and
data security against unauthorized access and attacks, 9 the Postal Service
1
  A worldwide system of computer networks.
2
  A private network contained within an organization and only accessible by the organization’s employees.
3
  A private network that shares part of an organization’s information or operations with suppliers, customers, or
vendors.
4
  VPN encrypts data sent through the network.
5
  Decision Analysis Report, DUIT Program, October 9, 2013.
6
  A device that allows wireless devices to connect to a network.
7
  Handbook AS-805, Information Security, Section 11, Network Security, dated May 2013.
8
  Handbook AS-805, Section 11, and Handbook AS-805-D, Information Security Network Connectivity Process, dated
September 2009.
9
  A network attack occurs when an attacker or hacker uses certain methods or technologies to use, corrupt, or steal
data for malicious purposes.
                                                            1
Wireless Local Area Network Deployment and                                                                IT-AR-14-005
 Security Practices


implemented standardized configurations for its wireless network APs. To improve
wireless network monitoring, the Postal Service implemented a
                             that detects unauthorized access, unauthorized
configuration changes, and other security incidents. Finally, to protect the network
infrastructure, the Postal Service has effective security policies in place to ensure new
wireless technology is authorized, evaluated, and assessed before deployment.

Effective security controls increase the probability the Postal Service will detect and
prevent unauthorized access to its network that could impair the confidentiality, integrity,
and availability of information systems and data.

Wireless Local Area Network Security Policies and Controls

Our audit determined that controls over the wireless network and technology were
generally in place and effective. Specifically:

     Wireless networks and APs are configured to monitor and detect unauthorized use
      and access. The Postal Service uses a                                       to
      centrally manage and configure its wireless network and            Integrated
      configuration templates are used to apply common and best-practice configuration
      settings for encryption, authentication, authorization, and accounting.

     We conducted wireless network scans at five facilities 13 to detect rogue APs. 14 We
      identified     out of       total APs that were not on the approved inventory list. 15
      After further analysis, we discovered that     of the unknown APs were

                             We validated that the             were           an approved
      Postal Service AP and did not pose a security threat. We analyzed the remaining
          unknown APs and determined they were not rogue APs. For example, these
      APs included mobile hotspots 18 and the APs of surrounding businesses. Therefore,
      they did not pose a risk to the network infrastructure. See Table 1 for details of this
      analysis.




    Raleigh, NC, Processing and Distribution Center (P&DC);
                          St. Paul, MN, P&DC; Minneapolis, MN, P&DC, and the

   Any wireless AP that has been installed on a network’s wired infrastructure without the consent of the network
administrator or owner.
15
   Inventory listing of all APs connected to the Postal Service network as of November 25, 2013.
16
   A secondary Wi-Fi hotspot created within a physical AP.
17
   The ability of a computer application or product to continue to function well when its size or volume is changed to
meet a user’s needs.
18
   A portable cellular data modem that is combined with a Wi-Fi router.


                                                           2
Wireless Local Area Network Deployment and                                                               IT-AR-14-005
 Security Practices


    The Postal Service employs continuous monitoring technology and procedures to
     ensure the wireless network is secure. This technology includes
                                                . Larger Postal Service facilities have
     dedicated APs configured for wireless intrusion detection. Smaller facilities employ
     APs that
                       his technology scans and analyzes the wireless network to detect
     unauthorized access and identify incidents for investigation and resolution by
     Telecommunication Services. 19

    Based on limited testing of completed sites, 20 we determined that
     Telecommunication Services ensured wireless technologies installed as part of the
     DUIT Program were authorized, evaluated, and assessed prior to deployment and
     were in compliance with established security policies and procedures. As of
     February 11, 2014, wireless installation was completed for 2,769 of 11,857 delivery
     units in the program This installation supports several applications scheduled for
     deployment:

     o
     o
     o

Telecommunication Services implemented the WLAN tracking database to manage the
wireless infrastructure expansion under the DUIT Program. The database contains the
deployment status for each application as well as site survey data 24 for individual sites,
which allows Telecommunication Services to track the progress of each individual
program. See Table 2 for the DUIT Program status.

Recommendations

Security controls over the Postal Service wireless network infrastructure are in place
and effective; therefore, we are issuing this report without any recommendations. The
Postal Service informally reviewed a draft of this report and had no comments or
concerns.




19
   A part of the Enterprise Access Infrastructure group, which manages all access to information technology
infrastructure, provides operational support, and provides deployment and strategic direction for the Postal Service.
20
   Selected sites were post offices located in Arlington, WA; Menomonee Falls, WI; Long Point, TX; North
Shepherd, TX; and Watsonville, CA.
21
   An overhead camera-based solution that provides hands-free scanning, image capture, and revenue protection
functionality at larger delivery units.
22
   DSS consists of an Advanced Computing Environment (ACE) laptop paired with a ring scanner and Bluetooth
headset used at smaller delivery units.
23
   A mobile device used to process simple transactions for customers in the lobby rather than at the retail counter.
24
   A wireless site survey is part of the review and approval process. Site surveys are performed to obtain maximum
benefits of the wireless devices and maintain appropriate security. The survey results are used to place APs, offer
channel sections, etcetera.


                                                           3
Wireless Local Area Network Deployment and                                                          IT-AR-14-005
 Security Practices


                                Appendix A: Additional Information

Background

Wireless networks allow organizations to extend their LANs to support a mobile
workforce. Devices with wireless capabilities such as laptops and smart phones are
able to communicate and use computing resources without physically connecting to a
network. WLANs are groups of wireless networking devices within a limited geographic
area that exchange data through radio communications. WLANs are an extension of the
existing wired network and must permit secure, encrypted, authorized communication
with access to data, communication, and business services as if connected to the LAN.

WLANs must:

    Maintain accessibility to resources while employees are not connected to a wired
     network.

    Secure the enterprise from unauthorized, unsecured, or rogue APs.

    Extend the full benefits of integrated network services 25 to nomadic users. 26

    Segment authorized users and block unauthorized users.

    Easily deploy, operate, and manage central or remote APs.

    Contain wireless threats, enforce security policy compliance, and safeguard
     information through enhanced security services such as WLAN Intrusion Prevention
     Systems and Intrusion Detection Systems.

    Simultaneously track thousands of Wi-Fi and active Radio Frequency Identification 27
     devices from directly within the WLAN infrastructure for critical applications (location
     services).

    Provide customers, vendors, and partners with easy access to wired and wireless
     LANs (guest access).

One of the primary components of a WLAN is an AP that transmits and receives data.
These APs allow wireless devices to connect to a wired network using Wi-Fi or related
standards, and can serve as the interconnecting point between the WLAN and a fixed
wired network. In contrast, a rogue AP is any Wi-Fi access point installed on a network
but not authorized for operation on that network, and not under network administrator
management. Rogue APs do not conform to WLAN security policies and can allow

25
   Integrated network services support data, voice, and different networking protocols.
26
   Nomadic users are computer users who can freely move in an environment without carrying a computing device,
using the devices present in the environment.
27
   A technology that incorporates the use of electromagnetic or electrostatic coupling in the RF portion of the
electromagnetic spectrum to uniquely identify an object.


                                                        4
Wireless Local Area Network Deployment and                                                                IT-AR-14-005
 Security Practices


anyone with a Wi-Fi device to connect to a network, bypassing the normal security
policies.

Telecommunication Services is responsible for managing the Postal Service network.
Network administrators and engineers own all network components and oversee all
connections to the network. Telecommunication Services uses the
                            for network security, deployment, management, and control
issues. This solution integrates      to automate wireless network planning,
configuration, and management functions.

Another tool in the unified wireless network solution is the               which
allows Telecommunication Services to monitor network activity and provide real-time
reporting for network statistics and alarms. 29

Objectives, Scope, and Methodology

Our audit objectives were to determine whether the Postal Service has effective security
policies and controls in place to detect unauthorized use and access to its wireless
networks, and to determine whether the current approved expansion plan for its
wireless infrastructure follows established policy and security standards. To accomplish
our objectives, we:

   Interviewed Postal Service officials in Telecommunication Services and members of
    the Computer Incident Response Team (CIRT) 30 to identify policies and procedures
    for managing, configuring, and monitoring a wireless network infrastructure and its
    components.

   Judgmentally selected five facilities at which to conduct wireless network scans to
    detect unauthorized APs and devices. We conducted the scans using the
                                                       . 31 The five facilities we selected
    were the:

    o Raleigh, NC, P&DC.
    o                    .
    o St. Paul, MN, P&DC.
    o Minneapolis, MN, P&DC.
    o                  .




   An event is an occurrence or detection of some condition in and around the network. An alarm is a
response to one or more related events. If an event is considered of high enough severity (critical, major, minor, or
warning), the       raises an alarm until the resulting condition no longer occurs.
30
   CIRT is responsible for providing an immediate and effective response to computer security incidents as they
occur.




                                                           5
Wireless Local Area Network Deployment and                                                                 IT-AR-14-005
 Security Practices



      Obtained an inventory of approved wireless APs and compared data for each of our
       sampled facilities.

      Identified and analyzed        unknown APs that were not on the approved inventory
       list and verified that they were not a threat to the Postal Service network.

      Reviewed standard configuration settings for wireless APs and workgroup bridge. 32

      Reviewed the       wireless network security incidents33 investigated by the CIRT
       that occurred between October 1, 2013, and February 18, 2014; and verified
       procedures for monitoring, detecting, and documenting security incidents.

      Obtained documentation for the 2,796 sites completed under the wireless
       infrastructure expansion project. Selected the five completed sites 34 under the DUIT-
       PASS Phase 2 and verified that wireless technologies were authorized, evaluated,
       and assessed prior to deployment.

We conducted this performance audit from August 2013 through April 2014, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

We assessed the reliability of wireless networks inventory data by performing scans of
wireless networks, reviewing and analyzing the resultant data, and interviewing
knowledgeable officials. We determined that the data were sufficiently reliable for the
purposes of this report.




32
     A small stand-alone unit that can provide a wireless infrastructure connection for ethernet-enabled devices.




     Arlington, WA; Menomonee Falls, WI; Long Point, TX; North Shepherd, TX; and Watsonville, CA.


                                                             6
Wireless Local Area Network Deployment and                                     IT-AR-14-005
 Security Practices




Prior Audit Coverage

The U.S. Postal Service Office of Inspector General (OIG) did not identify any prior
audits or reviews related to the objective of this audit.




                                             7
Wireless Local Area Network Deployment and                                                  IT-AR-14-005
 Security Practices



                              Appendix B: Wireless Scan Analysis

                              Table 1.

                           Postal                           Postal
                           Service          OIG             Service        Total
                          Approved        Scanned           Virtual      Authorized    Total
     Facility               APs             APs              APs            APs     Unknown APs
Raleigh P&DC


St. Paul P&DC
Minneapolis P&DC


Totals
Source: Wireless network scans conducted October through December 2013, and Telecommunication Services AP
Inventory listing.

Our scans identified        APs at the five facilities. This total includes    approved
APs and      that were not in inventory. Based on further analysis of the            APs, we
identified           APs that increased the total authorized APs to         . Our final
analysis determined that none of the remaining          APs we discovered were attached
to the network; therefore, we did not identify any rogue APs that were a threat to the
network.

            Table 2. Status of Delivery Unit Wireless Capability Deployment

                                            Programs
 Status of AP
 Installations                                                                 Totals     Percentage
Cancelled                  54        73                10                  25     162           2.8%
Completed                 539     1,163                 5         50    1,012   2,769          48.0%
Exception                            19                                            19           0.3%
In Progress                          15                 4                    1     20           0.3%
New                               1,891              323                        2,214          38.4%
On Hold                              28                68                          96           1.7%
Pending                              15                 1                          16           0.3%
Rescheduled                          27                13                          40           0.7%
Scheduled                           371                56                         427           7.4%
         Totals          593      3,602              480           50    1,038  5,763         100.0%
    Percentage         10.3%     62.5%              8.3%        0.9%    18.0% 100.0%
Source: WLAN Project Tracking Report dated February 11, 2014.




                                                      8
Wireless Local Area Network Deployment and                                     IT-AR-14-005
 Security Practices




According to the DUIT program, 18,857 wireless APs will be installed in delivery units to
support the                           applications. This connectivity is capable of
supporting multiple devices at the same time and providing adequate bandwidth for the
applications listed. These APs will be centrally managed and supported, and designed
to allow only Postal Service devices to connect to the network infrastructure. Once AP
installation is complete under the DUIT program, any future applications that need
wireless capability will have it.




                                             9
